No. 20-559
JANE DOE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Brief of National Veterans Legal Services Program and Paralyzed Veterans of America as
Amici Curiae in Support of Petitioner was sent via
overnight FedEx to the U.S. Supreme Court and counsel for the Petitioner and Respondent on November
30, 2020.
Michael J. Wishnie
Jerome N. Frank Legal Services Organization
P.O. Box 209090
New Haven, CT 06520
Direct: 202-436-4780
E-mail: michael.wishnie@yale.edu
Counsel for Petitioner

Jeffrey B. Wall
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
Direct: 202-514-2217
E-mail: SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
/s/ Melanie L. Bostwick
Counsel of Record

